No. ______

IN THE

SUPREME COURT OF THE UNITED STATES
JENNIFER MAE LEVIN,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.

On Petition for Writ of Certiorari
to the Florida Fifth District Court of Appeal

CERTIFICATE OF SERVICE

I, Michael Ufferman, member of the Bar of this Court, hereby certify that on this
24th day of April, 2020, three copies of the Petition for Writ of Certiorari (with
appendix) in the above-entitled case were mailed first class, postage prepaid, to:
Office of the Attorney General
444 Seabreeze Boulevard
Fifth Floor
Daytona Beach, Florida 32118

Page 1 of 2

I further certify that all parties required to be served have been served.
Respectfully submitted,
/s/ Michael Ufferman
MICHAEL UFFERMAN
Michael Ufferman Law Firm, P.A.
2022-1 Raymond Diehl Road
Tallahassee, Florida 32308
(850) 386-2345/fax (850) 224-2340
FL Bar No. 114227
Email: ufferman@uffermanlaw.com
COUNSEL FOR THE PETITIONER

Page 2 of 2

